No. 19-161
IN THE

DEPARTMENT OF HOMELAND SECURITY, et al.,
Petitioners,
V.

VIJAYAKUMAR THURAISSIGIAM,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CERTIFICATE OF SERVICE
I, Noah A. Levine, a member of the bar of this Court, hereby certify that, on this
22nd day of January, 2020, all parties required to be served have been served copies of
the Brief for Scholars of the Law of Habeas Corpus as Amici Curiae Supporting
Respondent in this matter by overnight courier to the addresses below.

Counsel for Petitioners

Counsel for Respondent

NOELJ. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OFJUSTICE
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

LEE GELERNT
AMERICAN CIVIL LIBERTIES UNION
125 Broad St.
New York, NY 10004-2400
(212) 549-2616
lgelernt@aclu.org

��/f:c.'is
NOAH A. LEVINE
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 20007
(212) 230-8875
noah.levine@wilmerhale.com

